UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6593
YIMOE SIDDHA,
Plaintiff - Appellant,
v.
DONALD B. SEALING, II, Clerk of Court for Carroll County; GREGORY
HILTON, Clerk of Court for Maryland Court of Special Appeals; SCOTT A.
POYER, Clerk of Court for Anne Arundel County,
Defendants - Appellees,
and
\

JOHN AND JANE DOE, CLERK,
Defendant.

Appeal from the United States District Court for the District of Maryland, at Baltimore,
George L. Russell III, District Judge. (l:19-cv-00131-GLR)
Submitted: June 28, 2021

Decided: July 8, 2021

Before GREGORY, Chief Judge, WYNN, and QUATTLEBAUM, Circuit Judges.
Affirmed by unpublished per curiam opinion.

Yimoe Siddha, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

2

PER CURIAM:
Yimoe Siddha appeals the district court’s order denying relief on his 42 U.S.C.
§ 1983 complaint. Having reviewed the record and finding no reversable error, we affirm.
We dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

3

• k.

Case l:19-cv-00131-GLR Document 22 Filed 03/30/20 Page lot 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

YIMOE SIDDHA,
Plaintiff,
v.
DONALD B. SEALING, D, CLERK OF
COURT FOR CARROLL COUNTY,
SCOTT A. POYER, CLERK OF COURT
FOR ANNE ARUNDEL COUNTY,
GREGORY HILTON, CLERK OF COURT
FOR MARYLAND COURT OF SPECIAL
APPEALS

Civil Action No. GLR-19-131

Defendants.

ORDER
For the reasons stated in the foregoing Memorandum Opinion, it is this 30th day of
March, 2020, by the United States District Court for the District of Maryland, hereby
ORDERED that:
1. The Clerk shall AMEND the docket, consistent with the above case caption,
reflecting the full name and title of Defendants Donald B. Sealing, II and Gregory
Hilton and substituting Defendant Scott A. Poyer in place of “John and Jane Doe.”
2. Defendants’ Motion to Dismiss (ECF No. 12) is GRANTED;
3. Siddha’s Motions for the Appointment of Counsel (ECF Nos. 11, 20) are DENIED
as moot;
i

A
*»■

r

‘-Jr

Case l:19-cv-00131-GLR Document 22 Filed 03/30/20 Page 2 of 2

4. The Clerk shall PROVIDE a copy of the foregoing Memorandum Opinion and a
copy of this Order to Siddha at his address of record; and
5. The Clerk shall CLOSE the case.

/s/
George L. Russell, III
United States District Court

2

4

*

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 1 of 18

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND

YIMOE SIDDHA,
Plaintiff,
v.
DONALD B. SEALING, II, CLERK OF
COURT FOR CARROLL COUNTY,
SCOTT A. POYER, CLERK OF COURT
FOR ANNE ARUNDEL COUNTY,
GREGORY HILTON, CLERK OF COURT
FOR MARYLAND COURT OF SPECIAL
APPEALS1

Civil Action No. GLR-19-131

Defendants.

MEMORANDUM OPINION
THIS MATTER is before the Court on Defendants Donald B. Sealing, II, Gregory
Hilton, and Scott A. Poyer’s Motion to Dismiss (ECF No. 12).2 The Motion is ripe for
disposition, and no hearing is necessary. See Local Rule 105.6 (D.Md. 2018). For the
reasons outlined below, the Court will grant the Motion.

1 The Clerk shall amend the docket to reflect the full name and title of Defendants
Donald B. Sealing, II and Gregory Hilton consistent with this case caption. The Clerk shall
also substitute Defendant Scott A. Poyer in place of “John and Jane Doe.’
2 Also pending before the Court are Plaintiff Yimoe Siddha’s Motions for the
Appointment of Counsel (ECF Nos. 11, 20). Because the Court will grant Defendants’
-Motion~to-Dismiss-,Those Motions wilTbe-denied-a-s-moot.---------------------------------------

<>

Case l:19-cv-0Q131-GLR Document 21 Filed 03/30/20 Page 2 of 18

I.
A.

BACKGROUND3

Robbery Case in the Carroll County Circuit Court
On June 7,2016, in the Circuit Court for Carroll County, Maryland, Plaintiff Yimoe

Siddha pled guilty to armed robbery, first-degree assault, and use of a handgun in the
commission of a crime of violence, for which an aggregate twenty-five-year sentence was
imposed. See Maryland v. Siddha, No. 06-K-15-046821 (Cir .Ct. Carroll Cty. filed Nov. 5,
2015).4 On March 2, 2018, Siddha filed a Motion to Correct Illegal Sentence, which the
court denied on March 23, 2018.5 (Mot. Dismiss Ex. 1 [“Carroll Cty. Ct. Docket”] at 3,
ECF No. 12-3: see also Mot. Dismiss Ex. 2 [“Carroll Cty. Ct. Filings”] at 7, ECF No. 124).
(On'July 23, 2018) Siddha mailed a copy of a Petition for Post Conviction Relief to
the Carroll County [State’s Attorney’s Office, asserting ineffective assistance of counsel

3 Unless otherwise noted, the Court takes the following facts from Siddha’s
Amended Complaint and accepts them as true. See Erickson v. Pardus, 551 U.S. 89, 94
(2007) (citations omitted).
4 Attached to Defendants’ Motion are court records from Siddha’s various
proceedings in the Circuit Court for Carroll County, the Maryland Court of Special
Appeals, and the Circuit Court for Anne Arundel County. The general rule is that a court
may not consider extrinsic evidence when resolving-a Rule 12(b)(6) motion without
converting it to a motion for summary judgment. Fed.R.Civ.P. 12(d); see also Chesapeake
Bav Found.. Inc, v. Severstal Sparrows Point. LLC, 794F.Supp.2d 602,611 (D.Md. 2011).
However, this general rule is subject to several exceptions. Of relevance here is the
exception allowing the court to consider matters of public record, including state court
records. Philips v. Pitt Ctv. Mem. Hosp.. 572 F.3d 176, 180 (4th Cir, 2009); see also
Wittholnv. Fed. Ins. Co.. 164 F.App’x 395, 397 (4th Cir. 2006) (per curiam) (concluding
that state court records are public records of which a federal district court may take judicial
notice).
5 The order was signed on March 23, 2018 but was docketed on March 27, 2018.
(MotrDismiss-Ex—2-[“GarroUGtyrGt.-Filings-]-at-7rEGF-No-l-2-4).------------------------2

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 3 of 18

and alleging that his guilty plea was not knowing and voluntary because he did not
understand the nature and elements of the offenses. (Deck Material Evid. Supp. Claim
[“Am. Compl.”] Ex. 1 at 19-25, ECF No. 15-1).6 The State’s Attorney’s Office
^khowIedgedTeceipfdf theluIy^OlTpetitibn but specifically informed Shidda via letter
that the ‘yuly 26,2018 date stamp was generated by [their] office Intake Unit upon receipt
and does not confirm receipt of this petition by the Court.” (Id. at 18). pie docket does not
. ^indicatethat"the3luly 2018 petition was ever fifed with the CarrolfCounty CifcuifCourt.
(The~do ck e fdoe~s, however,(indicate that on August 8,2018 the'State frledaresponse to the
July 2018 petition; that same docket entry notes that the petition was “[n]ot [f]iled with
Clerk’s Office.” (Carroll Cty. Ct. Docketat2).
CSiddhapreparedanotherPetitibhforPostUoh'viction'Reliepwhich'rsdafeddanuaiy'
0720191 (Am. Compl. Ex. 1 at 9-17). The last docket entry is dated November 29,2018,
and the docket does not indicate that the January 2019 petition was ever filed with the
court. (Carroll Cty. Ct. Docket at 2).
B.

Appeal of Motion to Correct Illegal Sentence in the Court of Special Appeals
On April 9, 2018, Siddha appealed the denial of his Motion to Correct Illegal

Sentence to the Mary land Court of Special Appeals. (Carroll Cty.Ct. Docket at 3). Siddha’s
request for waiver of prepaid appellate costs was granted on April 10,2018. (Mot. Dismiss
Ex. 3 [“Md. Ct. Spec. App. Docket”] at 1, ECF No. 12-5). Siddha filed a correspondence
requesting appointment of counsel. (Id.). Defendant Gregory Hilton, acting in his capacity

6 Citations refer to the pagination assigned by the Court’s Case Management and
-Electronie-Gase-Files-^GM/EGF—sy-stc-rn-;————■— ------—- t-.
..... ....—
.............
3

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 4 of 18

as Clerk of the Court of Special Appeals, informed Siddha via letter that he nor the court
had the authority to appoint counsel to represent Siddha. (Mot. Dismiss Ex. 4 [“Md. Ct.
Spec. App. Filings”] at 6, ECF No. 12-6). On June 4, 2018, the record on appeal was
received and docketed. (Md. Ct. Spec. App. Docket at 1).
One day after the appeal was docketed, jSrTJune 5, 2018, (Hilton issued a “Session
[Bfiefing'Notice” (the “Briefing Notice”)[directing Siddha to file his brief “on or before
fJulyT6720l8” and further advising the parties that, among other things, the appeal had
been set for argument in the^March 20T9 session? (Md. Ct. Spec. App. Filings at 7). [A}
^'docket entry notes thata~“[c]dpy[ofthe Noticewas]mailedto^appeljant[Siddha].” (Special
Appeals Ct. Docket at 1 j.'However^the Maryland Correctional Training Center (“MCTCj)
(Jegal mairibgcloes hot identify thisNotice among the mail Siddha received between March
f31^2012 and September 2018. (Am. Compl. Ex. 1 at 3).
On June 25,2018,the court issued an order giving Siddha thirty days to “show cause
in writing why the appeal should not be dismissed” for failure to transmit a transcript with
the Carroll County Circuit Court record. (Md. Ct. Spec. App. Filings at 9).^gain7MCTCrs]
Qegallhuillb^does notid^l^ylhisorder arnonYthemairSiddha receivedbetweenMarch
£3TT2017 and September 201J>. (Am. Compl. Ex. 1 at 3).
| On ^September 4, 2018, the Statemoved to dismlis'the appeal for Siddha’s “failure
^to^file^a'bnef and^any relevanTtfanscriptsl” (Md. Ct. Spec. App. Filings at 10). On
September 20, 2018,‘Siddha respondedTassertingthaFKe'was unaware of the July 16,20187
jbriefmgdeTdlme because heHadnotTeceivedthe^Bfiefihg-Noti'cg and that a transcript was
notincluded with the record because there was no hearing on his motion in the Carroll
4

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 5 of 18

County Circuit Court. (Id. at 15-17). That same day the appeal was dismissed pursuant to
Md. Rule 8-602(c)(5) for Siddha’s failure to file briefs. (Id at 18).
On October 4, 2018, the court received a document from Siddha addressed to the
Chief Judge of the Maryland Court of Special Appeals and captioned “Request for
Supervised Filing,” asking the Chief Judge to supervise the filing of the enclosed court
^

_____________.——---------------------------------------------------------------------- —---------------------------- -—■--------------■—♦

papers and alleging the Clerk’s “non-compliance with the law (Rule 1^-201 J) and the
destruction of the right to be heard per legem terrer: Maryland Rule 18-202.6.” (Id. at 19).
Siddha’s request included a prior affidavit, albeit newly dated, (id. at 25-27), and another
affidavit in which he further explained that he did not receive a copy of the Briefing Notice
from the clerk-^dactwhich he"asserted was evidenced by the_absence of any related
jConfemporaneous entry in his legal maij log, (id at 20—24). Siddha’s Request for
(Supervised FilTng alsoincluded abriefaddfessihg the^merits of his appeal . (Id at 28-36).
On October 23, 2018, the Chief Judge declined to reinstate the appeal and denied
Siddha’s Request for Supervised Filing. (Id at 37). On November 15, 2018, the court •
issued a mandate entering its September 20, 2018 dismissal as its final judgment; Hilton
signed the mandate. (Id. at 38).
C.

Lawsuit Against Hilton in Anne Arundel County Circuit Court
On January 8,2019, Siddha initiated a civil action against Hilton in the Circuit Court

of Anne Arundel County, Maryland by filing a Request for Waiver of Prepayment Filing
Fees and a proposed complaint. (Mot. Dismiss Ex. 5 [“Anne Arundel Cty. Ct. Docket”] at
1, ECF No. 12-71: see also Mot. Dismiss Ex. 6 [“Anne Arundel Cty. Ct. Filings”] at 1-4,
F.CF No 12-8). The complaint alleged that Hilton “by artifice and willful neglect denied
5

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 6 of 18

[him] access to court” by failing to provide Siddha the Briefing Notice in violation of
Maryland statutes and 42 U.S.C. § 1983. (Anne Arundel Cty. Ct. Filings 2-4).
On January 11, 2019, the court issued an order denying the fee waiver request,
identifying deficiencies with the request, and providing Siddha thirty days to cure those
deficiencies or risk dismissal of his case. (Id. at 8; see also Anne Arundel Cty. Ct. Docket
at l).On January 25,2019, Siddha wrote a letter to Defendant Scott A. Poyer, the Clerk of
the Circuit Court for Anne Arundel County, Maryland. (Anne Arundel Cty. Ct. Filings 9).
In the letter, Siddha complained that his case against Flilton had not received a case number
and that the court had neither “screened the complaint” nor granted his request to proceed
in forma pauperis. (Id.). Siddha attached a copy of what he identified as his “federal filing”
and requested a copy of the “case history” and a file-stamped copy of the initial filing. (Id.).
On February 4, 2019, the court again denied Siddha’s fee waiver request and advised
him that he must “pay the required filing fees within ten (10) day s ... or the case shall be
dismissed.” (Id. at 15). On February 26, 2019, Siddha advised the court that he would
“decline to pay any moot filing fee.” (Id. at 17). The court advised Siddha on February 28,
2019 that “the case remains dismissed for failure to pay filing fees.” (IcL at 18). According
to the docket, there have been no further filings and the case is closed. (Anne Arundel Cty.
Ct. Docket at 1).
On January 11, 2019, Siddha, proceeding pro se, sued Defendants for denying his
access to the courts. (ECF No. 1). Although he named all Defendants in the case caption,
Siddha’s Statement of Claim only alleged that “Hilton sabotaged the appeal through

6

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 7 of 18

refusingto notify [him] of a ‘BriefingNotice.’” (Compl. at 3).7 Siddha seeks compensatory
and punitive damages. (Id. at 4). On April 18,2019, Siddha filed a “Declaration of Material
Evidence in Support to Claim,” which the Court construes as an Amended Complaint.
(ECF No. 15). In the Amended Complaint, Siddha elaborated upon his allegations against
Hilton; asserted that Poyer “was responsible for the disappearance” of the case he filed
against Hilton in the Anne Arundel Circuit Court; and alleged that Defendant Donald B.
Sealing, II, Clerk of Court for Carroll County Circuit Court, was a conspirator, who failed
to file his petition for post-conviction relief. (Am. Compl. at 2-3).
On April 15, 2019, Defendants filed a Motion to Dismiss, asserting that they were
entitled to Eleventh Amendment immunity and alleging that the Complaint failed to state
a claim under Rule 12(b)(6). (ECF No. 12). Siddha filed an Opposition to the Motion to
Dismiss on April 26, 2019. (ECF No. 16). Defendants filed a Reply on May 8, 2019. (ECF
No. 18).
II.
A.

DISCUSSION

Subject Matter Jurisdiction under Rule 12(b)(1)
1.

Standard of Review

Defendants’ assertion of Eleventh Amendment immunity challenges the Court’s
ability to exercise its Article III powers and, as such, is governed by Federal Rule of Civil
Procedure 12(b)(1).8 Beckham v. Nat’l R.R. Passenger Corn., 569 F.Supp.2d 542, 547

7 Citations refer to the pagination assigned by the Court’s Case Management and
Electronic Case Files (“CM/ECF”) system.
8 The Eleventh Amendment to the United States Constitution provides that “[t]he
■Judicial-power-of-the~United-States-shallnot-be-eonstrued-to-e-x4end4o-any-suit.in-law-or7

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 8 of 18

(D.Md. 2008). A defendant challenging subject matter jurisdiction under Rule 12(b)(1)
may advance a “facial challenge, asserting that the allegations in the complaint are
insufficient to establish subject matter jurisdiction, or a factual challenge, asserting ‘that
the jurisdictional allegations of the complaint [are] not true.’” Hasley v. Ward Mfg., LLC,
No. RDB-13-1607,2014 WL 3368050, at *1 (D.Md. July 8,2014) (alteration in original)
(quotingKerns v. United States. 585 F.3d 187,192(4thCir. 2009)).
When a defendant raises a facial challenge, the Court affords the plaintiff “the same
procedural protection as he would receive under a Rule 12(b)(6) consideration.” Kerns,
585 F.3d at 192 (quoting Adams v. Bain, 697 F.2d 1213,1219 (4th Cir. 1982)), As such,
the Court takes the facts alleged in the complaint as true and denies the motion if the
complaint alleges sufficient facts to invoke subject matter jurisdiction.
With a factual challenge, the plaintiff bears the burden of proving the facts
supporting subject matter jurisdiction by a preponderance of the evidence. U.S. ex rel.
Vuvvuruv. Jadhav, 555 F.3d 337, 347 (4th Cir. 2009). In determining whether the plaintiff
has met this burden, the Court “is to regard the pleadings’ allegations as mere evidence on
the issue, and may consider evidence outside the pleadings without converting the
proceeding to one for summary judgment.” Richmond. Fredericksburg & Potomac R. Co.

equity, commenced or prosecuted against one of the United States by Citizens of another
State.” U.S. Const, amend. XL Notwithstanding the Eleventh Amendment’s explicit
mention of only “Citizens of another State,” the Supreme Court of the United States has
construed the Eleventh Amendment as also protecting states from federal court suits
brought by the state’s own citizens. IcL; Lee-Thomas v. Prince George’s Cty. Pub. Sch.,
666 F.3d 244,248 (4th Cir. 2012) (quotingPort Auth. Trans-Hudson Corn, v. Feeney,495
-UtS—2-9-9,-304-(-1-990)),------------ -—:------------------------- —------------------------------------8

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 9 of 18

v. United States, 945 F.2d 765, 768 (4th Cir. 1991) (citing Adams, 697 F.2d at 1219).
Nevertheless, the Court applies “the standard applicable to a motion for summary
judgment, under which the nonmoving party must set forth specific facts beyond the
pleadings to show that a genuine issue of material fact exists.” Id. (citing Trentacostav.
Frontier Pac. Aircraft Indus.. Inc., 813 F.2d 1553, 1559 (9th Cir. 1987)). The movant
“should prevail only if the material jurisdictional facts are not in dispute and the [movant]
is entitled to prevail as a matter of law.” Id. (citing Trentacosta, 813 F.2d at 1558). Unlike
under the summary judgment standard, however, the Court is permitted to decide disputed
issues of fact. Kerns. 585 F.3d at 192, and weigh the evidence. Adams. 697F.2d at 1219.
2.

Analysis

Defendants contend that they are entitled to Eleventh Amendment immunity
because they are State clerks of court who have been sued in their official capacities. In his
Opposition, Siddha alleges that the claim against Sealing “may fairly be construed as in his .
individual capacity” and that Sealing is not entitled to immunity under [McCray v.)
| Maryland.456 F.2dT(4th Cir. 1972). (Pl.’s Resp. Mot. Dismiss [“PL’s Opp’n”] at 1, ECF
No. 16).
As a preliminary matter, the Court notes that Siddha’s Opposition fails to address
the sum and substance of Defendants’ Motion regarding Eleventh Amendment immunity
and the sufficiency of Siddha’s claims. Siddha merely reiterates his'unsubstantiated
assertion that Hilton denied him access to the courts by “deliberately cho[osing] to mail
the briefing notice to some remote location... to orchestrate grounds for dismi ssal of the
appeal.” (Pl.’s Opp’n at 2). As to Poyer, Siddha realleges the basic allegation in his
9

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 10 of 18

Amended Complaint: Poyer “refused to file” the case against Hilton. (IcL at 3). However,
Siddha’s Opposition as to these Defendants is inadequate, as it is “entirely conclusoiy, and
contain[s] no specific arguments addressing the defendant [s’] points,” thereby warranting
dismissal of those claims. See Ferdinand-Davenportv. Children’s Guild, 742 F.Supp.2d
772,783 (D.Md. 2010) (finding a plaintiff s failure to address arguments in a defendant’s
motion to dismiss a particular claim constitutes an abandonment of the claim); see also
Hardaway v. Equity Residential Mgmt., LLC, No. DKC 13-0149,2016 WL 3957648, at
*6 (D.Md. July 22, 2016) (reiterating that the court may treat a defendant’s arguments as
uncontested and dismiss the complaint when the plaintiff simply “repeat[s] many of the
same conclusory allegations in their opposition brief that appeared in the . . . amended
complaint”). Accordingly, the Court dismisses Sidhha’s claims against Hilton and Poyer9.
Siddha’s Opposition does, however, attempt to rebut Sealing’s claim of immunity.
Unfortunately, Siddha’s argument misses the mark. Sealing asserted immunity under the
Eleventh Amendment, which protects the state from suit in federal court by private
individuals unless the state has consented to suit, or Congress has lawfully abrogated the
state’s Eleventh Amendment immunity. See Ballenger v. Owens, 352 F.3d 842, 844-45
(4th Cir.- 2003). The state’s immunity extends to “state agents and instrumentalities.”
Regents of the Univ. of Cal, v. Doe, 519 U.S. 425, 429 (1997)). Similarly, state officials

9 In any event, it is clear that Poyer did not deny Siddha access to the courts by
dismissing or otherwise closing a case in which Siddha refused to file the required filing
fee. See Rembold v. Lettau. No. ELH-19-16, 2019 WL 5423304, at *8 (D.Md. Oct. 23,
2019) (dismissing § 1983 claim against a circuit court clerk where the plaintiff was denied
-a-fee-waiverand-refusedTopay-the-fi-ling-fee)v-----------------------------------------—--------10

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 11 of 18

sued in their official capacity are entitled to Eleventh Amendment immunity, because “‘a
suit against a state official in his or her official capacity is not a suit against the official but
rather is a suit against the official’s office.’” Lytle v. Griffith, 240 F.3d 404, 408 (4th Cir.
2001) (quoting Will v. Mich. Den’t of State Police, 491 U.S. 58, 71 (1989)). Eleventh
Amendment immunity also shields the state, its agencies, and instrumentalities from § 1983
claims because they are not “persons” as the term is used in the statute. Dukes v. Maryland,
No. CCB-11-876,2011 WL 4500885, at *5 (D.Md. Sept. 27, 2011).
Siddha cites McCray in support of his argument that Sealing is not entitled to
immunity. However, McCray

examined quasi-judicial immunity—not Eleventh

Amendment immunity. Quasi-judicial immunity “extends to those persons performing
tasks so integral or intertwined with the judicial process that these persons are considered
an arm ofthe judicial officer who is immune.” Williams v. Hanlon, No. RDB-19-550,2019
WL 1597320, at *4 (D.Md. Apr. 15, 2019), anneal dismissed. No. 19-6517,2019 WL
5207911 (4th Cir. June 18, 2019) (internal quotations and citations omitted). In McCray,
the United States Court of Appeals for the Fourth Circuit held that court clerks are not
entitled to quasi-judicial immunity from § 1983 claims “for failure to perform a required
ministerial act such as properly filing papers,” because filing papers is a mandatory job
function, devoid of discretion. 456 F.2d at 4. McCray’s holding would undoubtedly
undermine Sealing’s claim of quasi-judicial immunity—had he raised that argument.
Accordingly, Siddha’s reliance upon McCray is misplaced.10

10 Moreover, to the extent that Siddha relies upon McCray’s holding that a denial of
uxce'ssxiaimmnder-§H-9'83mmy-be-premised-on-negfigencxUhat-holding-was-subseq-uently11

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 12 of 18

Sealing, as the Clerk of the Carroll County Circuit Court, is a state official under
Maryland law and is immune from suit under § 1983. See Panowicz v. Hancock, No. DKC
11-2417,2012 WL 4049358, at *7 (D.Md. Sept. 12, 2012) (concluding that circuit clerk
courts are state officials not subject to suit under § 1983 given that “a judgment against
[defendant would likely be paid from the state treasury, that her positionis created by the
state constitution, and that her duties are defined by statute”). Accordingly, Sealing is also
entitled to Eleventh Amendment immunity as a state official who has been sued in his
official capacity.
Because Siddha purports to sue Sealing in his individual capacity, the Court will
examine the sufficiency of that claim.11
B.

Sufficiency of Allegations under Rule 12(b)(6)
1.

Standard of Review

The purpose of a Rule 12(b)(6) motion is to “test[ ] the sufficiency of a complaint,’’
not to “resolve contests surrounding the facts, the merits of a claim, or the applicability of
defenses.”King v. Rubenstein. 825 F.3d 206,214 (4th Cir. 2016) (quotingEdwards v. City
of Goldsboro. 178 F.3d 231,243 (4th Cir. 1999)). A complaint fails to state a claim if it
does not contain “a short and plain statement of the claim showing that the pleader is

overturned by Pink v. Lester. 52 F.3d 73, 77 (4th Cir. 1995) (concluding that McCray is
inconsistent with the Supreme Court’s subsequent decision in Daniels v. Williams, 474
U.S. 327 (1986), to the extent that it “authorizes a cause of action for merely negligent
conduct that impacts access to the courts”).
11 The Court declines to consider claims against either Poyer or Hilton in thenindividual capacities, as Siddha conspicuously omitted references to personal capacity suits
-against-either-Defendant------------------------------------------ :-------------------------------- ;------12

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 13 of 18

entitled to relief,” Fed.RXiv.P. 8(a)(2), or does not “state a claim to relief that is plausible
on its face,” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twomblv, 550 U.S. 544, 570 (2007)). A claim is facially plausible “when the plaintiff
pleads factual content that allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” IcL (citing Twombly, 550 U.S. at 556).
“Threadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.” Id. /citing Twombly, 550 U.S. at 555). Though the plaintiff is
not required to forecast evidence to prove the elements of the claim, the complaint must
allege sufficient facts to establish each element. Goss v. Bank of Am., N.A., 917 F.Supp.2d
445,449 (D.Md. 2013t (quoting Walters v.McMahen,684 F.3d 435,439 (4th Cir. 2012)),
aff d sub nom., Goss v. Bank of Am., NA, 546F.App’x 165 (4th Cir. 2013).
In considering a Rule 12(b)(6) motion, a court must examine the complaint as a
whole, consider the factual allegations in the complaint as true, and construe the factual
allegations in the light most favorable to the plaintiff. Albright v. Oliver, 510 U.S. 266,268
(T994T Lambeth v. Bd. ofComnTrs of Davidson Cty., 407 F.3d 266, 268 (4th Cir. 2005)
(citing Scheuer v. Rhodes. 416 U.S. 232, 236 (1974)). But, the court need not accept
unsupported or conclusory factual allegations devoid of any reference to actual events,
United Black Firefighters v. Hirst. 604 F.2d 844, 847 (4th Cir. 1979), or legal conclusions
couched as factual allegations, Iqbal, 556 U.S. at 678.
When, as here, the plaintiff is proceeding pro se, the Court will liberally construe
the pleadings, which are held to a less stringent standard than pleadings drafted by lawyers.
Erickson. 551 IT S. 89. 94 t2007') (quoting Estelle v. Gamble, 429 U.S. 97, 106 (1976));
13

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 14 of 18

accord Brown v.N.C. Dep’tof Corr., 612 F.3d 720, 722 (4th Cir. 2010). Pro se complaints
are entitled to special care to determine whether any possible set of facts would entitle the
plaintiff to relief. Hughes v. Rowe. 449 U.S. 5, 9-10 (1980). But even a pro se complaint
must be dismissed if it does not allege “a plausible claim for reli ef.” Forquerv, Schlee, No.
RDB-12-969, 2012 WL 6087491, at *3 (D.Md. Dec. 4, 2012) (citation and internal
quotation marks omitted).
2.

Analysis

Prisoners have a constitutionally protected right of access to the courts, whereby
they may challenge their sentence or condition of confinement. Bounds v. Smith, 430 U.S.
817, 821 (1977); see also Lewis v. Casey. 518 U.S. 343, 355 (1996). In Christopher v.
Harbury, 536 U.S. 403, 413-15 (2002), the United States Supreme Court characterized
access-to-the-courts claims as being in one of two categories. The first, termed “forward
looking claims,” are cases where official action frustrates a plaintiff’s ability to bring a suit
at the present time. Jennings v. City of Stillwater, 383 F.3d 1199,1208—09 (10th Cir. 2004).
The second class, termed “backward looking claims,” arise when a Plaintiff alleges that a
specific claim “cannot be tried (or tried with all the evidence) [because past official action]
caused the loss or inadequate settlement of a meritorious case.” Ich at 1209. In this way,
the official action is said to have “‘rendered hollow [the plaintiffs] rightto seek redress’”
in the courts. Id. (quoting Christopher. 536 U.S. at 415 (brackets in original) (internal
citations omitted)). Whether the claim is forward or backward looking, a prisoner claiming
he was denied access to the courts must ultimately prove he suffered actual injury by
showing that the defendant’s acts hindered his ability to pursue a non-frivolous legal claim;
14

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 15 of 18

conclusory allegations are insufficient. See Cochran v. Morris, 73 F.3d 1310, 1317 (4th
Cir. 1996) (en banc) (requiring a prisoner claiming a denial of the right of access to the
courts to make specific allegations and identify actual injury resulting from officials’
conduct).
Denial of access claims may be brought under § 1983. Stephens v. Muncy, 1991
WL 18532,at *1 n.l (4th Cir. 1991).To state a claim under § 1983, a plaintiff must allege
(1) that a right secured by the Constitution or laws of the United States was violated, and
(2) that the alleged violation was committed by a “person acting under the color of state
law.” Borkowski v. Balt. Ctv.. 414 F.Supp.3d 788, 808 (D.Md. 2019) (citing West v.
Atkins. 487 U.S. 42, 48 (1988). Additionally, a plaintiff must allege “personal fault based
upon a defendant’s own conduct.” |d. (citing Bost v. Wexford Health Sources, Inc., No.
15-cv-3278-ELH,2018 WL 3539819,at *19 (D.Md. July 23, 2018)).
Applying this framework, it is clear that the claims against Sealing in his individual
capacity are insufficient to state a claim for denial of access under § 1983. First, the
Amended Complaint baldly asserts that Sealing “also chose to deny [him] ‘Access to the
Court,’ when he set in motion to break the law by throwing [his] Petition for PostConviction Relief in File (13) which is short for trashcan.” (Am. Compl. at 3). As
previously noted, Siddha allegedly filed two petitions for post-conviction relief, one in July
2018 and another in Janaury 2019. However, Siddha does not even specify which of the
two petitions Sealing allegedly failed to file. Siddha nonetheless concludes that “all
Defendants .. . took the action with the malicious intention to cause a deprivation of [his]
constitutional and statutory rights.” (Id.). Conclusory allegations of this sort utterly fail to
15

■:h

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 16 of 18

state a claim for denial of access to the courts. Richardson v. Boyd, No. GLR-13-2721,
2013 WL 5530672, at *1 (D.Md. Oct. 3, 2013) (dismissing sua sponte a denial of access
claim under § 1983 where plaintiffprovided “no facts or evidence to support the conclusory
assertions” that he was unable to appeal his case or mount an effective defense).
Second, a plaintiff must establish “actual injury” to his or her ability to challenge a
sentence or condition of confinement, i.e., that a “nOnfrivolous pos.t-conviction or civil
rights legal claim has been “frustrated” or “impeded.” Cooper v. Sowers, No. JFM-133872,2015 WL 5198131, at *19 (D.Md. Sept. 4, 2015) (internal quotations and citations
omitted). Here, Siddha’s July 2018 and January 2019 petitions for post-conviction relief
appear to be “nonfrivolous” attempts to challenge the sentence he received in his Carroll
County robbery case. However, the Amended Complaint fails to allege how, if at all,
Siddha was actually injured by Sealing’s alleged failure to file one or both petitions.12 For
example, Siddha has not alleged that his petitions are now time-barred or rendered moot
by disadvantageous changes in caselawthat would have been inapplicable had his petitions
been timely filed.

12 For the first time in his Opposition, Siddha argues that he brings this action for
“alleged systemic violations of his First Amendment rights, rather than for mental or
emotional injury.” (Pl.’s Opp’n at 2). Siddha cites several cases and appears to argue that
because he has alleged a violation of his First Amendment right, he is not obligated to
prove injury. The Court declines to consider this argument, as it was raised for the first
time in a responsive pleading. Hurst v. District of Columbia, 681 F.App’x 186, 194 (4th
Cir. 2017) (reiterating that “a plaintiff may not amend [a] complaint via briefing”).
Moreover, the allegations in the Amended Complaint do not support a First Amendment
violation':
1
:
'
16

Case l:19-cv-00131-GLR Document 21 Filed 03/30/20 Page 17 of 18

Third, Siddha has failed to allege sufficient facts establishing that Sealing was
personally involved in the alleged failure to file—a requirement that is separate and apart
from those governing denial of access claims. “Section 1983 requires a showing of personal
fault, whether based upon the defendant’s own conduct or another’s conduct in executing
the defendant’s policies or customs.” Enow v. Baucom, No. PWG-16-4042, 2018 WL
925422, at *3 (D.Md. Feb. 16.2018"); see also Coaklev v. Welch, 877 F.2d 304, 306 (4th
Cir. 1989) (noting that “a claim of lack of personal involvement is a merits defense ina §
1983 action’”): Vennedge v. Gibbs. 550 F.2d 926, 928 (4th Cir. 1977) (explaining that in
order for an individual defendant to be liable under § 1983 it must be “affirmatively shown
that the official charged acted personally in the deprivation of the plaintiffs rights”).
Here, the Amended Complaint makes a conclusory assertion that Sealing is
responsible for failing to file one or both of the petitions, but Siddha offers no evidence
suggesting that Sealing was personally involved in the alleged misconduct. To that point,
none of the court records attached to the parties’ filings contain Sealing’s name or
signature, refer to him in either his personal or professional capacity, or otherwise identify
him as the person who handled any aspect of Siddha’s Carroll County case. Moreover,
Siddha’s Amended Complaint fails to even identify Sealing as the Clerk of the Carroll
County Circuit Court at the time he filed one or both petitions. Nothing in the record
indicates that Sealing was personally involved in depriving Siddha of his right to access
the courts. At bottom, Siddha has failed to state a claim against Sealing in his individual
capacity for denial of access to the courts under § 1983.

17

Case l:19-cv-0Q131-GLR Document 21 Filed 03/30/20 Page 18 of 18

III.

CONCLUSION

For the foregoing reasons, Defendants’ Motion to Dismiss (ECF No. 12) is
GRANTED. Siddha’s Motions for the Appointment of Counsel (ECF Nos. 11, 20) are
denied as MOOT. A separate order follows.
Entered this 30th day of March, 2020.

/s/
George L. Russell, HI
United States District Court

18

